                                       f'..




                                                     ,~. " -             '.'
                        i.~,lEDJ .J /, 'RE ~          1 ,;' A   ,,.,.
                                                                        (,         ",,',




                                                                               ,



                               A T -'ir;, . \.     . XYGC                          CÅ-E
r
i
    ,';




                       -""Cu.,. '
                 j. ~".. . '''Sot',



           I"
          ..
          ::
          ~.¿
            ..
            '$
                     ¿
               "é-t 4-
                 ~1t
          OF ICE OÇ!; ~;.' ~                     GE:NiERAl
                      OFFICii' OF ANAL YSJS AND INSPECnONS


                                                                                   DECEMBER 1987
                 '"
                                                      J


                                                                       ':t




                                  Office of Inspector Generai
     'TliS inss1on of tf Office Q.f ¡nspe~:tör '6eneiai (OI.i)1 is ti piomote
     thß efficiency, effecti.enßss ~~d int~ity of progr~ms in the
     Uni~ed states Departmeat of Hèai~à ~nd Humn Servicas (HaS). It
     C;oes this by deveioping methods to detect a.id prevent frcm.. waste
     an4 abuse. CDéa~ed by statu~e in igVil the inSpector Generai
     keeps both the Secretary and thè CoagrèS$ fulL.y aid cuærem1:i¥
     ~nformed abot p~ogrà.s or mpagèmet p~QSiems' and reçommnds
     cor~cti ¥e ac~ìon~ The OIS performs its mission by conducting
     a!Uits, inve.stigaticns and Inispect'ions with apprQXimat,e~ii 1,200
     ~ta~t strateicall~ t~ated a~9upd the'co4n~ry.

                                                                                \ ~,
                             Office of Aaal.ysi,S' and I'nsptct'ions

     This report is prduced by the. Off.icè pf AQalY$ìs and Inspac'tions
     (ÇlI'), one of the three ßljór a£fices within the OIG. The otàer ..
     t~o are tne Office of Andi t and the Office of Inv.estigations. The
     O~ conducts inspeGtions which ar9 typicaiiy short-term studies
     ae~~gned to deter_iee pro~ra~ e~fectiveness, efficiency and
     vulnerabiii ty to fráud or abu.
.~




                                          ''r;Ls Re~..'f

     Thi,s inpec.tion" entitl'ed "Meai.,care Beimllnirsellen't (for At-Home
     O~y~en Car,e", WÇlIS conducted t:'G ~termine how Medicare .
     relmbursement f~ at-home oxyge~ OG~res wi~ the ~9unt paid b1
     ßon-Med~~are payers for the same at~home oxygen services ø
     This ins.pection was prepared by the R\giønai Inspe1ctor Genrai fcr
     Anà~ysl,ß and I~spectioßs, aegion rv. Part~ci~ting in this
     proj ec~ were the foi~øwißg s~aff:
     J~dith A. Morgan,            Project Leader
     Peglg;y P aAie 1
     Jo.slah T.owasei

     R-egioa V           Office Q~ Investi..ations
     DOR Kuhi

     He~~tn e~e Branch. - Head.uarters
                              J
     Ka-rep Reynoids, Proj ect Lia.i.SO
     Ma~ ~§an, Data Liaison
   MEDICAR REIMBURSEM FOR' AT-HOME OXYGEN CAR




RICHARD P. KUSSEROW
             December 1987

INSPECTOR GENERAL



OAI-04-87-000i 7

                         TABLE OF CONTENTS


                                                    PAGE


EXECUTIVE SUMRY	                                            i

INTRODUCTION                                                i

    .. Background                                           i

     Purpose . . . .'. . . . . . . . . . .                  2


     Methodoiogy                                            2

FINDINGS                                                    4

     Medicare's At-Home Oxygen Costs are High

       and Continue to. Rise . . . . . . . . .              4

     Medicare's Costs are Higher Than They Need

       To Be­. . . . . . . . . . . . .                      5


    .There are Severai Reasons Why Medicare Pays

      More for At-Home Oxygen Care . . . .                  9


     The Time is Ripe to Fix This Probiem .                10

RECOMMENDATIONS                                            12

AGENCY RESPONSE                       . . . . . .          i5

APPENDIX                                                   ia

     A. Medicai Necessity Certification Process 19

     B. Prevaiiing Charges for HcPCS Code E1396 20

     C. Potentiai Medicare Savings on Oxygen

           Concentrators . . .. ..... 21

     D.	   List of Prior Studies and Reports .             23

     E.	 Medicare Carriers Manuai 5246.5

           computatiån Exampies . . . . . .                25

  MEDICAR REIMBURSEM FOR AT-HOME OXYGEN CAR

                        EXEcUTJ:VE SUMRY

PUROSE:             This nationai program inspection was conducted

                    to determine how Medicare reimbursement for

                    at-home oxygen compares with the amount paid

                    by non-Medicare payers for the same at-home

                    oxygen services. Information was obtained

                    from Medicare program staff, carriers, and

                    beneficiaries. Non-Medicare sources

                    contacted inciuded Veterans Administration

                    (VA) hospi tais, state Medicaid agencies,

                    heai th maintenance organizations, a nationai

                    iabor union, a nationai association

                    representing the durabie medicai equipment

                    (DME) industry, and severai indi viduai DME

                    suppiiers and manufacturers.

BACKGROUN :         In i985 (the iatest year for which nationai

                    data are avaiiabie) Medicare' spent $530

                    miiiion for at-home oxygen care.

FINDINGS:
    DECREASED       Since 1983, acquisition costs to suppiiers of

    ACQUISJ:TJ:ON   concentrators have decreased by 33 percent

    COSTS           whiie Medicare reimbursement 1eveis have

                    remained the same. consequentiy, Medicare is
                    not taking advantage of the economies present

                    in the marketpiace.


    COSTS TO
       Non-Medicare payers have deveioped cost-

    NON-MEDICARE    effective reimbursement methods for at-home
    PAYERS          oxygen which resui t in monthiy payments as
                    much as four times iower than those made by
                    Medicare. .
    POSSJ:BLE       Medicare continues to use the reasonabie

    SUBSTANTJ:AL    charge method for reimbursement of at-home

    MEDICARE        oxygen care, resui ting in payments that are

    SAVJ:NGS        as much as $250 per month per beneficiary more

                    than those made by 
 non-Medicare payers for the

                    same services.

                    The Heal th Care Financing Administration

                    (HcFA) recognized factors reiative to

                    carriers' caicuiation of reasonabie charges in

                    its March 1987 Transmittai ii80 guideiines.



                                  i

                   Fuii impiementation of Medicare Carrier Manuai

                   (McM) Section 5246.5 couid reduce Medicare

                 , expenditures by at ieast SlOO miiiion per

                   year. However, other changes in HCFA' s

                  . reimbursement poiicies couid resui t in even

                   more substantiai savings.


 WEAKESSES IN     The current certification process for medicai

 PHYSICIAN        necessi ty of at-home oxygen undermines HCFA' s

 CERTIFICATION     abiii ty to ensure payment for oniy those
 PROCESS          beneficiaries who medicaiiy need at-home

                   oxygen care.
 SHORTCOMINGS      The HCFA Common Procedure Coding System

 IN CURRENT
       (HcPcS) was designed to coiiect uniform

 DATA SYSTEMS
     nationai payment and utiiization data.

                   Current inconsistencies in the data on at-

                   home oxygen prevent its immediate use in

                   effecting change in the reimbursement

                   mechanisms.
 POSSIBLE          At ieast three Medicaid State agencies use

 SUBSTANTIAL       competi tive bid procedures in order to obtain

 MEDICAID          significantiy reduced costs for at-home oxygen

 SAVINGS           care.
 POTENTIAL         Beneficiaries are required to make a co­
 BENEFICIARY       payment equai to 20 percent of any

 SAVINGS           Medicare aiiowed charges paid for their

                   care. A 
 reduction in Medicare

                   reimbursement ieveis for at-home oxygen

                   wouid resui t in a comparabie reduction in

                   co-payments for those Medicare

                   beneficiaries using this therapy. This

                   reduction assumes a prohibition against

                   the DME' s passing the Medicare payment

                   reduction onto the beneficiary.
RECOMMENATIONS:

                                  SHORT TERM

 IMPLEMENT         A precise strategy shouid be deveioped by

 MCM 5246.5
       HcFA to ensure the timeiy and effective

 GUIDELINES        implementation of the McM 5246.5 guideiines.

                   Then HcFA shouid cioseiy monitor carrier-

                   specific cost savings resui ting from

                   impiementation of the guideiines.



                                  ii

   REQUIRE        The immediate issuance by HCFA of a

   PHYSICIAN      uniform medicai necessity certification

   ATTESTATION    form with a strong attestation statement wouid

                  be an effective front-end controi for abuse.

   INFORM         The experiences of states currentiy using

   MEDICAID       the competi ti ve bid process shouid be
   STATE          distributed by HcFA to aii Medicaid state

   AGENCIES OF
   agencies. In addition, HCFA shouid

   POTENTIAL      encourage other states to immediately

   SAVINGS        consider ai ternative reimbursement methods for

                  at-home oxygen.

   MODIFY         This data system shouid be modified to

   HCPCS          contain oniy one code for oxygen

   OXYGEN         concentrators, since the cost of a

   CODES          concentrator is independent of the amount of

                  oxygen consumed by the beneficiary. However,

                  HcFA shouid continue to use codes which

                  refiect consumption ieveis for iiquid and

                  gaseous oxygen systems.
RECOMMATIONS:
                          LONG TERM

   REQUEST        A iegisiative proposai shouid be prepared

   SPECIAL        and submitted by HCFA to request the

   PAYMENT        authority to extend to at-home oxygen

   LIMITATION     care a speciai payment iimi tationauthori ty

                  containing specific criteria for estabiishing

                  these iimi tations comparabie to those in P. L .
                  99-509, Section 9333 (Omnibus Budget

                  Reconciiiation Act). This authority shouid

                  inciude a beneficiary safeguard which

                  prohibi ts the DME suppiier from passing

                  Medicare payment reductions on to the

                  beneficiary .
   TEST           The HCFA shouid consider a series of

   ALTERNATIVE    demonstration proj ects (such as
   APPROACHES     competi ti ve bids and interagency agreements
                  wi th Veterans Administration hospi tais) to

                  deveiop both ai ternati ve Medicare reimburse­
                  ment mechanisms for at-home oxygen care, as

                  weii as innovative methods for ensuring

                  quaiity patient care.





                                  iii

                         INTODUCTION

                            BACKGROUND

In 1985, an estimated 83, 000 Medicare beneficiaries received at-

home oxygen care. This use of at-home oxygen is a means to

achieve Medicare's goai of maintaining beneficiaries in their

homes as iong as possibie. Physicians prescribe at-home' oxygen

for patients suffering both iong- and short-term aiiments.

Typicaiiy, the method for oxygen deiivery to individuai

beneficiaries is determined by the durabie medicai equipment (DME)

suppiier. The choice of method for at-home oxygen deiivery (which

may be in the form of gas, iiquid, or concentrator) ideaiiy is

based on the oxygen fiow rate, the concentration ievei, and the

need or abiii ty of the patient to be mobiie.


In i985, annuai Medicare costs for at-home oxygen exceeded $530

miiiion. Oxygen concentrators represented about $300 miiiion (57

percent) of that totai. This inspection focuses on oxygen

concentrator~, since they represent an increasing percentage of

Medicare's oxygen expenditures. This shift to the use of

concentrators has resui ted from the dramatic reduction in their

acquisition costs, their low maintenance requirements, as weii as

their convenience to both patients and suppiiers. In comparison

to the iiquid and gaseous systems, concentrators do not require

the transport, refiiiing, or overhead of buiky tanks.

HOW is AT-HOME OXYGEN CARE PROVIDED?

LIQUID SYSTEM	      This tank system is used by both ambuiatory

                    and bedridden patients. It delivers the

                    highest purity of oxygen, and is usuaiiy oniy

                    prescribed for patients requiring a high fiow

                    rate (4 ii ters per minute or more). This

                    system generaiiy proves to be the most

                    expensive method of providing at-home oxygen

                    care. Use of this system requires frequent

                    refiiis by the DME suppiier.

GASEOUS SYSTEM	    This tank system is the most economicai system

                   and is typicaiiy suppiied to patients not

                   requiring a continuous use of oxygen or who

                   require oniy a iow-flow rate (usuaiiy about 2

                    ii ters per minute). It aiso requires the
                   transport and refiiiing of buiky tanks.

CONCENTRATOR	      This machine operates eiectricaiiy to generate
                   oxygen from the atmosphere and is designed for
                   patients requiring continuous oxygen with a
                   fiow rate of up to 4 ii ters per minute and who
                    are house-bound or have minimai portabiii ty
                   needs.

                                i
HOW is AT-HOME OXYGEN OBTAINED UNDER MEDICARE?

At-home oxygen care must be prescribed by a physician. The

determination of which system is to be provided to the patient is

aimost aiways made by the DME suppiier, who interprets the

physician's prescription. The supplier prepares a medicai

necessi ty certification form for the physician's signature. Then


carrier for payment. .
the signed form is submitted by the DME suppiier to the Medicare


Three vuinerabiiities to the Medicare program, exist in this

system. First, there is a significant absence of physician and

Medicare oversight of the determinations made by DME suppiiers.

Secondiy, when signing the certification for medicai necessity,

most physicians do not compare the data contained on the form with

the patient's medicai record. Thirdiy, the Medicare carriers'

determinations of the ievei of reimbursement to the suppiiers vary

greatiy between carriers nationwide. A more compiete description

of the current certification process is contained in Appendix A.


                              PURPOSE
OBJECTIVES OF THIS INSPECTION

This OIG Inspection was designed to:
     o document the current at-home oxygen reimbursement

          practices of Medicare and non-Medicare payers;

     o determine the per unit costs of at-home oxygen care

          systems to Medicare and compare them with the costs to

          various non-Medicare payers; and

     o identify recommendations that wouid resui t in

          significant program savings, savings to beneficiaries,

          as weii as the deveiopment of mechanisms to ensure

          quaii ty of patient care.
                           METHODOLOGY

This inspection inciuded the coiiection of quantifiabie and

anecdotai data from Medicare program staff, inciuding Medicare

carriers and Medicare beneficiaries. Data were aiso obtained from

non-Medicare sources, inciuding Veterans Administration (VA)

hospitais, state Medicaid agencies, Heaith Maintenance .
Organizations (HMOs), a nationai iabor union, and severai

individuai DME suppiiers and manufacturers. These respondents

were asked to provide data on the number of at-home oxygen users,

types of systems used, costs of each system, method of payment,

and the q~aii ty of service provided. The data provided were

anaiyzed by source and compared with the Medicare data.



                                 2
Nationai Medicare ~ata on the cost of at-home oxygen care were

examined on a carrier-specific basis. This information was

obtained from HCFA' s Part B Medicare Annuai Data System (BMAD).

The iatest data avaiiabie are from i985. Suppiementai information

pertaining to Medicare carrier-specific experiences was requested

from each of the carriers.





                               3

    CMRT A


                                            OXYGEN CONCENTRATORS

                                OME Suppiie~s' Acqu1~ltlon Costs Oec~ease...


      Oci :'111'1

        ,,.....
        ..,... (­

         900 ~ ­
         100 t

             i

                   ~

         700 ­

         &00 r
                                                           -
         SúO L

                   L

         4wu r


         300 i
~

                   ~

         200 i.
           . L

         100 ~

                   ~
              0'
                         1983                                              19117 .

                                                   Vllr'

ai&/cu: 191




                            . . . While Medlca~e's P~opo~tlonate Costs Increase
Monthly Piymenti II I i of ÂCQu111t1on Casts

         100 r


           90 ..
                   ~
           10 :.
              ,
                   ..
           70 l-
                   I'

           80 :.
              i

                   r
           50 ..

           ~L
                   ~




           :~r
           10 i
         - r

              oi
                         191
                                                                          --
                                                                           19
                                                   '(eir'

OXI/W 11

                                 FINDINGS

MEDICARE'S AT-HOME OXYGEN COSTS ARE HIGH AND CONTINUE TO RISE

In recent years, the cost to Medicare of providing at-home oxygen

care has increased .substantiaiiy. This is especiaiiy true of the

cost reiated to oxygen concentrators. Payments aiiowed by

Medicare carriers for DME suppiiers' charges for at-home oxygen

care in 1984 and 1985 were:

                                  TABLE 1
                    TYPE OF OXYGEN SYSTEM      i984       i985
                        LIQUID               $ 99   M   $i37   M
                        GASEOUS              $ 51   M   $ 87   M
                        CONCENTRATOR         $181   M   $300   M


                             TOTAL           $331   M   $524' M

The above data are from HcFA' s BMAD system, which is the only

nationai database for Medicare Part B. The 1984 data refiect

reports from 44 Medicare carriers. The 1985 data are from 54

Medicare carriers.

                the above tabie, oxygen concentrators, the focus

As refiected in 


of this inspection, constituted the major portion of Medicare's

reimbursement fpr at-home oxygen. Information obtained from

severai Medicare carriers regarding their 1986 reimbursements for

at-home oxygen systems substantiates both a continuing shift to

the predominant use of oxygen concentrators as weii as an increase

in their totai payments.

In sharp contrast to 
 Medicare 's steadiiy increasing costs for

oxygen concentrators is the. concurrent decrease in DME suppiiers'

acquisi tion costs for this equipment. Chart A depicts the changes

in these costs from i983 to i987. Pubiished resui ts of a 1984

Medicare carrier survey showed that a DME suppiier couid lease an

oxygen concentrator from a manufacturer for $25.00 to $40.00 per

month. However, our discussions in 1987 with several
manufacturers reveaied that the acquisition cost of a concentrator

through a 3-year iease purchase arrangement couid be as iow as

$4.00 per month for the ini tiai 6-month period, $24.00 per month

for the remaining 30-month period, and then a $i. 00 fee to own the

equipment outright. Whiie this appears to be the lowest iease­
purchase rate avaiiabie, the more typicai price is about $35.00

per month.





                                       4

Chart B





               OXYGEN CONCENTRATORS

               Typical Monthly Reirn bursernen t

                         Payer
                        Medicare                                           $30.0

                Medicaid (No Bid)                                      $269

                   Medicaid (Bid)

                      VA (No Bid)                        $169

                         VA (Bid)

                          6 HMOs
                       $163

                     Labor Union
                            $180

                                    $0         $100      $200          $300          $400
                                                        Dollars
                                         ~ Monthly Payment          Acquisition ($35)


     OIG/OAI
MEDICARE'S COSTS ARE HIGHER THAN THEY NEED TO BE

Medicare typicaiiy reimburses a DME suppiier about $300 per month

for the rentai of an oxygen concentrator. However, non-Medicare

payers a1i pay significantiy iess for the same equipment. The

foiiowing tabie shows the typicai monthiy rentai for concentrators

by type of payer. Chart B shows the reiationship between each

payer's monthiy reimbursement ieve1 and the DME suppiiers' average

acquisi tion cost.



                                        TABLE 2
                                OXYGEN CONCENTRATORS:

                           TYPICAL MONTHLY RENTAL PAYMENTS

                                                  REIMBURSEMENT TO
            PAYER                                 SUPPLIER ( Per Uni t )
Medicare (23 Medicare Carriers)                      $   270.00
Medicaid (26 states with           no                $   269.04
     competi ti ve bid contracts)
Medicaid (3 states with                              $   i50.00
     competi ti ve bid contracts)
VA (93 competitive bid contracts)                    $    82.14
VA (25 Hospi tais with no                            $   i68.75
     competi ti ve bid contracts)
HMOs (6 with competi ti ve contracts)                $ 163 . 00

Nationai Labor Union (Rent-purchase)                 $   180.00

              COST AND REIMBURSEMENT POLICIES OF NON-MEDICARE PAYERS

Veterans Administration (VA)

During the past 4 years, most Veterans Administration hospi tais
have provided at-home oxygen systems through the competitive bid

process. Of 127 hospi tais providing data, 93 (or 73 percent) are
operating under a competitive bid contract .with a DME suppiier.

Many of the other VA hospitais now are studying or initiating

their own competi ti ve bid process.


A1i VA hospitais (whether or not they have a competitive bid

process) pay iess than Medicare for each at-home oxygen. system.

This is especiaiiy true in the case of oxygen concentrators.

                                           5
       ~
       Cl .­
       01Q)
       ~  ~

       ~ ~                    L(

       o mH                   ~C\

       en ;j
                                                                   CI



       ~  S
       o .~                                                        g S
                                                                   (Ö r:~
                                                                   ~ Q)
       C) Q)                                                       Co
       en ~                                                              t;
                                                                         if
       cQ ~                                                              I4
                                                                         o
       o :a                                                              Q)
                                                                         P-' v
          .¡                                             ~-        -­ t; ~
                                                                      E- .~
       Ff ~                                                        '"
                                                                   i:         '"
       ~ 0                                                         ;j
                                                                   o
                                                                   P­
                                                                               v
                                                                              ::
                                                                   "­
       cQ ~
           ~
                                                         C\
                                                         co

                                                         ~a
                                                                   -­
                                                                   '"
                                                                   ...
                                                                   ;j
                                                                    0"
                                                                              I
                                                                   ...
       r=  ~                                                       ..         -­
                                                                              '"
       .~ .~                                                                  ...
                                                                              -­
                                                                              p:

       ;: ~     ui
                ~
                                                                              -c
                                                                              :;
        cT~
       .~      ....oj
       ~       01
                  o
                              I     I     I    I    I     I   I               I
CJ
                        L(
                        ~
                        C"
                             aC"
                             ~
                                    L(
                                    ~
                                    C\
                                         aC\
                                         ~     ~-
                                               L(   a-
                                                    ~    ~
                                                         L(
                                                              ~a                    :;
                                                                                    o
+J                                                                                  "'
I­
ct
..CJ                                                                                -o
                                                                                    Co
Through the competitive bid process, VA hospitais ~re paying an

average of $82.14 a month to rent an oxygen concentrator, which

usuaiiy inciudes portabie equipment, deiivery, and routine

maintenance. Medicare typicaiiy pays about $300 per month for the
same equipment, inciuding deiivery and maintenance. Some VA

hospi tais own their oxygen concentrators and have negotiated
contracts with DME suppiiers oniy for the deiivery, set-up, and

ongoing maintenance of the equipment. In such instances, the

contracts caii for monthiy fees which range from $15 to $35.

Tabie 3 beiow shows actuai DME suppiier charges to VA and Medicare

in two different geographic areas for at-home oxygen systems.

Since the DME suppiiers in both areas were operating under a VA

competi ti ve bid process, they were reimbursed the amount they
charged to VA. However, the Medicare carriers for both areas

reimbursed aii DME suppiiers in their respective areas at their

estabiished prevaiiing rate. Chart C iiiustrates the

reimbursement differences between VA hospi tais and Medicare.
                                TABLE 3
           DIFFERENCES IN CHARGES SUBMITTED TO VA AND

                MEDICARE BY THE SAME DME SUPPLIER

                                AREA A


          OXYGEN SYSTEM'                      VA         MEDICARE

          LIQUID (PER POUND)               $ .82          . $1.00
          GASEOUS (PER 240 CUBIC FEET)     $io.oo        $25.00
          CONCENTRATOR                     $78.00        $300.00
           (Rentai per month)
                                AREA B

          OXYGEN SYSTEM                        VA        MEDICARE

          LIQUID (PER POUND)               $ .75            $1.75
          GASEOUS (H CYLINDER)             $11.00         $35.00
          CONCENTRATOR                     $90.00        $360.00
           (Rentai per month)

Medicare's payments for the rentai of oxygen equipment were

typicaiiy two to four times the amount paid by the VA hospitais

using competi ti ve bid contract procedures. .
Aimost aii VA hospitais using competitive bid contracts for oxygen

services were compiimentary of the quaii ty of products and degr~e


                                   6

of maintenance and other services rendered by their contractors.

Not oniy does the VA receive these services more economicaiiy than

previousiy, but the VA hospi tais stated quaii ty has improved.

Many hospi tai staffs aiso stated that the same DME vendors have

submi tted bids in subsequent years, and that these bids frequentiy

continue to show reduced costs.'


Most VA hospi tais' competitive bid contracts inciude provisions

that ensure a high ievei of service to VA patients. For exampie,

they usuaiiy require that each patient be visited by the

contractor's respiratory therapist or respiratory technician once

a month. During this visit, the equipment is checked and an

assessment is made of the patient's condition. A written report

of these items goes to the VA hospi tai for its records. In

addition, many VA hospitais activeiy participate with their

contractors in the development of instructionai materiais to

acquaint the patient and famiiy members with the operation and

day-to-day maintenance of the machines. Moreover, many VA

hospi tais have estabiished monitoring procedures to ensure that
their suppliers adhere to the contract quaii ty of care and service

provisions.
Medicaid State Agencies

Information on at-home oxygen use and cost was requested from 54

state Medicaid agencies. Of the 29 who responded, most foiiow the

iead of Medicare and use reasonabie charge reimbursement

practices. However, based on the information provided, aii 29

Medicaid agencies pay iess for at-home oxygen than Medicare. Over

75 percent of the time, Medicaid pays iess than $250 per month per

recipient, regardiess of the oxygen system used.

Three Medicaid agencies are using the competi ti ve bid process for
at-home oxygen, and aii three pay iess than $150 per month per

recipient for the fuii range of oxygen services, inciuding tanks

and concentrators.

The oniy indication from the Medicaid respondents regarding

quaii ty of care or quaii ty of service came from the three agencies

using the competitive bid mechanism. Their provisions primariiy

focus on minimum response times and 24-hour emergency services.

Health Maintenance Organizations (HMOs)

Data were obtained from eight HMOs regarding their methods for

providing their patients with at-home oxygen care through the use

of an oxygen concentrator. One HMO utiiizes a iist of discount

suppiiers, but couid provide no statisticai information. Another

has an arrangement with a singie DME suppiier and pays a fixed

amount regardiess of the number of users.





                                 7

The data for the remaining six H_MOs reveai that five have forrai

rentai contracts for oxygen concentrators and one has a forrai

rent-purchase contract. The average monthiy rentai cost per

patient for these six HMOs is $163. This cost. inciudes deiivery

of suppiies and maintenance and, in s9me instances, the services

of a respiratory therapist. The HMO with the rent-purchase

arrangement pays a monthiy rentai fee oniy untii a totai of $1,200

per patient has been paid. Thereafter, whiie service continues to

the patient, the ownership and equipment maintenance costs and

responsibiiities faii to the DME suppiier.

Five of the eight respondents stated that they have quaii ty of

care standards in place and that they undertake routine monitoring

efforts to ensure that they are met.

The eight HMOs providing data consisted of three nationai group

HMOs, two nationai Individuai Practice Associations (IPAs), one

iocai group, one iocai IPA, and one HMO demonstration proj ect.

Membership in the HMOs ranged from 1,000 to 50,000 peopie.

National Labor Union

This union serves the medicai needs of over i40,000 retirees, many

of whom suffer aiiments requiring at-home oxygen use. In 1985,

its Heai th and Retirement Funds unit estabiished a DME Cost

Management Program whose first phase sought to strengthen its

method for ensuring that the medicai equipment, oxygen, and

oxygen-reiated equipment it -provided was medicaiiy necessary and

appropriate for each beneficiary's needs.

The obj ecti ve of the second phase was to make its methods of
payment for DME more cost-effective. The union estabiished a

"Cooperating Vendor Program," whose participants agreed to

specific terms concerning equipment qùaii ty , specifications,
maintenance and servicing, standard rental/purchase payment

amounts, and the appiication of rentai payments toward the

purchase price.
The union purchases rather than rents DME whenever it is

determined more cost-effective to do so. Purchase/rentai

decisions are based on a cost-benefit anaiysis, comparing the

purchase price pius projected servicing costs to the projected

rentai payments for the probabie duration of that patient's usage.

Purchases are made oniy after a 6-month rentai period in order to

ensure that the DME which had been piaced was meeting the

beneficiary's needs. For new piacements, rentai payments are made

for the first 6 months. Then, if the DME is purchased, the 6

months of rentai payments are appiied to the purchase price.

Existing placements were purchased, with the iast 6 months of

rentai payments appiied towards the purchase price.





                                 8

As a resui t of these efforts, the union now pays a totai of $180

per month for an oxygen concentrator untii a maximum of $i, 800 has

been paid, at which time the union owns the equipment. The union

pays a $75 per month maintenance fee to the DME suppiier after the

$i,800 ievei has been reached, pius an addi tionai $i2 per month

for disposabie suppiies (tubing, face masks).


THERE ARE SEVERAL REASONS WHY MEDICARE PAYS MORE FOR AT-HOME

OXYGEN CARE

Weaknesses in the Physician Certification Process (MCM 4105)

Aii DME must be certified by a physician as medicaiiy necessary

for a patient's medicai condition. A weakness in this process for

at-home oxygen gives Medicare ii ttie controi over the transiation

of the physician's' prescription into the information that is
provided on the certification form which is used by the Medicare

carrier to determine the amount to be reimbursed to the DME

suppiier. A patient who needs oxygen receives a prescription

which he/she takes to a DME suppiier. The DME suppiier generaiiy

determines what kind of oxygen system is to be provided to the

patient. The DME suppiier prepares a form, for signature by the

patient's physician, which contains information to be used by .th~

carrier to determine the reimbursement ievei. The DME suppiier

submi ts the signed form to the Medicare carrier for payment. In

the case of oxygen concentrators, the reimbursement ievei for each

ciaim is determined based on the oxygen fiow rate and number of

hours per day stipuiated on the certification form. converseiy,

the reimbursement ievei for iiquid or gaseous oxygen is based on

the actuai amount of oxygen consumed.

Shortcomings in the Use of HCPCS

The HcFA Common Procedures Coding System (HcPcS) was designed by

HcFA as a uniform system for data coiiection by the carriers. The

indi viduai HCPcS codes for iiquid and gaseous oxygen distinguish

between the capacity of the equipment and/or the amount of oxygen

suppiied to the beneficiary. However, in the case of oxygen

concentrators these codes oniy reflect the projected consumption

for each beneficiary, since ii ttie variance exists in the

equipment's abiii ty to produce uniimi ted amounts of oxygen. In
the case of oxygen concentrators, HcPcS provides the carriers a

totai of 18 codes, pius the option for 10cai modifiers. These

codes represent reimbursements which range from a low of $50 per

month to the high of over $300 per month, depending on the

carrier. About 90 percent of the DME suppiiers' ciaims are for

the highest paid code (Ei396).

The i8 HcPCS codes for oxygen concentrators do not refiect the

actuai oxygen need of a patient nor the patient's actuai oxygen

consumption. Therefore, a singie HCPCS code for oxygen
concentrators wouid ensure consistency and enhance data
coiiection.
                                 9

Flaws in' the ~easonable Charge Method (MCM 5246.5)


The primary reason that Medicare pays more for at-home oxygen is

its use of the reasonable charge method of reimbursement.

Reasonabie charge criteria are based on the theory that suppiier

competi tion in the open marketpiace wiii resui t in charges at

their iowest competi ti ve ievei. However, the reasonabie charge
reimbursement reguiations faii to recognize factors that resui t in

reductions in suppiier costs due to more efficient operations and

decreased acquisition cost. This fiaw perpetuates at ieast a

"status quo" in charges and can resuit in increased charges by

continuing to apply an infiation factor to an infiated base.

Furthermore, the reasonabie charge system couid enable a singie

high voiume provider to upwardiy distort the prevaiiing charge in

a given geographic area. The prevaiiing charge is caicuiated by

the carrier based on charges biiied by DME suppiiers for each

instance of service (See Appendix B.) However, even though the

amount aiiowed to a suppiier may be set at $300 per month, the

suppiier may continue to biii at a monthiy $500-per-concentrator

ievei. This biiied amount wiii then be used in the carrier's

iater caicuiation of the suppiiers' or marketpiace' s prevaiiing

charge, which ui timately impacts on future aiiowed charges to that

suppiier.
Even though Medicare is the iargest purchaser of at-home oxygen

care, this inspection found that the current reimbursement .
procedures do not ensure reimbursement at the iowest price

possibie. - Medicare is paying more for at-home oxygen care than

any of the other 
 payers examined during the course of this

nationai inspection.' According to the 1985 BMA data, Medicare

.spent over $300 miiiion doiiars on oxygen concentrators aione.

Medicare couid save at ieast $100 miiiion per year by adopting new

reimbursement procequres (See Appendixc. ) Further, the current

procedures inhibit financiai competition by the industry and

foster "price-fixing" type actions.


Non-Medicare payers who, in every instance, pay significantly iess

than Medicare have used other more innovative reimbursement

methods. The two maj or methods are the competi ti ve bid process
and the purchase of equipment. Individuai VA hospitais have been

highiy successful in containing at-home oxygen costs through the

use of both of these methods. Furthermore, at ieast three
Medicaid state agencies have contained oxygen costs through the
use of the competitive bid mechanism. These same cost-effective
resul ts have been achieved by other non-Medicare payers.

THE TIME is RIPE TO FIX THIS PROBLEM

The probiems with Medicare's reimbursement for at-home oxygen have

attracted the interest of the Congress, the Office of Inspector

Generai (OIG), and HcFA over the past 8 years. The OIG, HcFA and

others have conducted a number of studies regarding a variety of

oxygen reimbursement issues (see Appendix D). Data from these


                                10

studies outiine the high costs to Medicare for at-home oxygen

care, .especiaiiy the amount paid for oxygen concentrators. Whiie
these reports inciuded recommendations designed to contain. the

costs of oxygen reimbursement, changes in reimbursement procedures

have been siow in coming.

The HCFA has acknowiedged the probiems reiated to reimbursement

for at-home oxygen care. Its most recent effort to change the

reimbursement system for oxygen was in March 1987. At that time,

HCFA issued the MCM 5246.5 guideiines to assist its Medicare

carriers in determining inherent reasonabieness for reimbursement

of Medicare DME charges, particuiariy oxygen concentrators.

According to these non-compuisory guideiines, the customary and

prevaiiing charge data may be infiuenced by additionai factors,

such as:
     II i) the marketpiace is not competitive; 2) Medicare is
       the primary source for payment; 3) the charges invoi ve

       the use of new technoiogy for which an extensive charge

       history does not exist; 4) the charges do not refiect

       changing technoiogy, increased faciii ty with that

       technoiogy, or changes in a iocaii ty are grossiy in

       excess of prevaiiing charges in other iocaiities; and 5)

       charges are grossiy in excess of acquisition or

       production costs. II
Through the McM 5246.5 guideiines, HCFA provided the Medicare

carriers with the toois for reducing the cost of at-home oxygen.

Whiie the carriers are aware of the discrepancies between the

charges to Medicare and non-Medicare payers for at-home oxygen and

are eager to rid themsei ves of thè compiex methods invoi ved in

caicuiating reasonabie charge, they are not eager to create

carrier-specific charge ieveis. They beiieve that equipment

issues such as these shouid be dealt with nationaiiy and invoive

an estabiished payment iimi tation, aiong with a uniform medicai

necessi ty certification form.


Fuii nationwide impiementation by carriers of the McM 5246.5

guideiines for at-home oxygen care couid resui t in Medicare

program savings of over $100 miiiion annuaiiy. The appiication of

these guideiines aiso wouid piace Medicare expenditures for at-

home oxygen more in line with non-Medicare payers (See Appendix

E. )




                                 ii

                       R E CO M MEN D A T ION S


                   SHORT TERM RECOMMENDATIONS

RECOMMENDATION #1 - IMPLEMENT MCM 5246.5 GUIDELINES

FINDING:           The issuance of the McM guideiines by HcFA in

                   March 1987 was a positive effort to reduce the

                   cost to Medicare for oxygen concentrators.

                   The use of reduced acquisition cost as HcFA' s

                   basis for a payment reduction for oxygen

                   concentrators under the inherent

                   reasonabieness authority is totaiiy compatibie

                   wi th this inspection's findings. Aggressi ve

                   action by HCFA and its carriers is necessary

                   in order to bring Medicare payments in iine

                   wi th those of non-Medicare payers.

RECOMMENDATION:     Thè HCFA shouid deveiop a precise strategy to

                    ensure the timeiy and effective impiementation

                    of the McM 5246.5 guideiines, and HCFA shouid

                    cioseiy monitor carrier-specific cost savings

                    resui ting from the impiementation of these
                    guideiines.
IMPACT:             Nationai impiementation óf the McM 5246.5

                    guideiines couid resui t in savings of over

                    S100 miiiion annuaiiy.


RECOMMENDATION #2 - REQUIRE PHYSICIAN ATTESTATION

FINDING:            The process currentiy used for compietion of

                    the medicai necessity certification forms

                    contains vuinerabiii ties to Medicare. It aiso

                    faiis to ensure that Medicare 
 pays for at-home

                    oxygen care in oniy those instances in which

                    the beneficiary requires the care at the

                    leveis needed. This. absence of adequate

                    front-end controis fosters abuse. .
RECOMMENDATION:     The HcFA shouid issue immediateiy a uniform

                    medicai necessity certification form.

                    Inciuded on this form shouid be a strong

                    physician attestation statement. This

                    attestation piaces the responsibiii ty with the
                    physician for the accuracy of the information

                    contained on the certification form.

IMPACT:             Increased physician participation in the

                    medicai necessity certification process wiii

                    ensure that the at-home oxygen care and

                    equipment paid for by Medicare corresponds

                    wi th each beneficiary's needs.


                                  12
RECOMMENDATION #3 - INFORM MEDICAID STATE AGENCIES OF POTENTIAL

                    SAVINGS
FINDING:            At ieast three Medicåid State agencies use the
                    competi ti ve bid approach and have been
                    successfui in achieving significant reductions
                    in their cost for at-home oxygen care. Over
                    25 other Medicaid state agencies use the
                   , Medicare reasonabie charge reimbursement
                    method for at-home oxygen and reimburse at
                    ieveis comparabie to those paid by Medicare
                    carriers.
RECOMMENDATION:     The experiences of States currentiy using the
                    competi tive bid process shouid be distributed
                    by HcFA to aii state Medicaid agencies along
                    wi th strong encouragement for immediate
                    consideration of ai ternative reimbursement
                    mechanisms.
IMPACT:             Aierting Medicaid State agencies to potentiai
                    cost-effective ai ternat~ve mechanisms couid
                    resui t in substantiai savings for the Medicaid
                    program.

RECOMMENDATION #4 - MODIFY HCPCS OXYGEN CODES

FINDING:	          The HCFA Common Procedures Coding System
                   (HcPCS) was designed to coiiect uniform
                   nationai payment and utiiization data. The

                   variety of codes for iiquid and gaseous

                   systems have been successfui in measuring the

                   amounts of oxygen consumed through these

                   systems. However, the numerous codes for

                   oxygen concentrators have been iess usefui.

RECOMMENDATION:	   Continued use of mui tipie codes to measure
                   consumption ieveis for iiquid and gaseous
                   systems is appropriate. The data system for
                   oxygen concentrators shouid be changed to
                   contain oniy one code for oxygen
                   concentrators.
IMPACT:	           Carrier inconsistencies in the appiication of
                   concentrator codes wouid be eiiminated.
                   Moreover, the carrier administrative burden
                   wouid be reduced substantiaiiy since the need
                   to caicuiate equivaiency ieveis wouid be
                   eiiminated.

                                  13
                    LONG TERM RECOMMENDATIONS

RECOMMENDATION #5 - REQUEST SPECIAL PAYMENT LIMITATION

FINDING:            Medicare's reasonabie charge reimbursement

                    mechanism does not take advantage of the

                    reduced acquisition costs to DME suppiiers .for

                    oxygen concentrators. These iow acquisition

                    costs in conjunction with the iimited need for

                    suppiier maintenance do not substantiate the

                    significant variance in Medicare reimbursement

                    ievels among carriers.

RECOMMENDATION:    A iegisiative proposai shouid be prepared and

                   submi tted by HcFA to request the authority to

                   extend to at-home oxygen care a speciai

                   payment iimi tation authority containing

                   specific criteria for estabiishing these

                   iimitations comparabie to those in P.L. 99­
                   509, Section 9333 (OBRA). This authority

                   shouid inciude a beneficiary safeguard which

                   prohibi ts the DME supplier from passing

                   Medicare payment reductions on to the

                   beneficiary .
IMPACT:            Medicare couid achieve substantiai program

                   savings as weii as nationai consistency in

                   reimbursement ieveis among carriers. In

                   addi tion, Medicare beneficiaries wouid share
                   in these savings through reduced co-payments.


RECOMMENDATION #6 - TEST ALTERNATIVE REIMBURSEMENT MECHAISMS

FINDING:           Aimost aii non-Medicare payers of at-home

                   oxygen care pay significantiy iess than

                   Medicare. These non-Medicare payers use a

                   variety of reimbursement mechanisms which have

                   been highiy successfui in achieving

                   significant savings for their programs.

RECOMMENDATION:    The HCFA immediateiy shouid commence a series

                   of demonstration projects, such as competitive

                   bids and interagency agreements with Veterans

                   Administration Hospi tais. These proj ects

                   should focus on deveioping ai ternative
                   Medicare reimbursement mechanisms and

                   innovative methods for ensuring quaii ty of
                   patient care.

IMPACT:            In the impiementation of its existing
                   demonstration authority, HcFA shouid make
                   maximum use of the experiences of non-Medicare
                   payers to try a variety of experiments. Fuii
                   Medicare impiementation of methods used by
                   non-Medicare payers, such as competitive bid,
                   couid achieve about $200 miiiion annuaiiy in
                   Medicare program savings.
                               14
                                                          PG REPOE

                          Administration (HCFA) provided comments

The Heai th Care Financing 


on the draft report to the OIG on November i8, 1987. This

response inciuded comments on each specific recommendation

contained in the draft report as weii as a few technicai

suggestions. Aii of the technicai s~ggestions were incorporated

in the finai report. The comments reiated to the recommendations

are:




                                 Coimnts of Health Cae Finacing Adnistration

                                                            on the OlG Draft Report

                                   Mecae Reimbuement for At-Hom Oxen Cae
                                                                    OAI-04-87-00017


        Reoondtion No. 1 ­
        HCFA should develop a precise strategy to ensure the timely 

                                                                                       an effective
        implemntation of the MO 5246.5 guidelines an HCFA should closely

        moni tor carrier-speific cost savings resulting from the implementation of

        these guidelines.


        Conts ­
        We agree with this recoindtion. Subsequent to issuace of these

        instrutions, in order to promte national consistency a conferene call

        wi th all HCFA regional offices wa conducted to discuss imlemntation of
        these guidelines.


        Carier Maual guidelines instrut caiers to forw to HCFA copies of

        notices alerting providers of chanes in reimbursemnt throug the use of
        other factors in detennining inherent reasonableness. We intend to

        monitor carrier implementation, including cost savings, via these notices.


        Reonuendation No. 2 ­
        HCFA should issue immiately a unifonn mecal necessity certification

        fonn. Included on this fonn should be a strong physician attestation

        statement. This attestation places the responsibility with the physician

        for the acury of the infonntion contained on the certification form.


         Conts ­
         We are currently in the process of developing a mecal necess,i ty
         certification fonn with an attestation statemnt as recornded by the
         OlG.



                                                                         15

Reomendtion . No. 3 ­
The expriences of States currently using the competi ti ve bid proess
should be distributed by HCFA to all State Mecaid agencies alOng with

strong encourement for inmate consideration of al teniti ve
reimbusemnt mehaism.

Conts ­
We agree tht there is a potential here to realize Meicaid progra

savings an will develop an appropriate notification for all Mecaid
State agencies.


Reonndtion No. 4 ­
Continued use of multiple codes to measur consumption levels for liquid

an gaseous system is appropriate. The data system for oxygen

concentrators should be chaned to contain only one code for oxygen

concentrators .
Ceimnts ­
The use of HCFA Con Procedures Cong System (HCP) codes by cariers

wa recently revised by Carier Progra Meraum B-87-13, copy

attahed. This will create a consistent approah to data collection an

we believe it is a preferable altenitive to having a single code for all

concentrators. This is due to the fact tht oxyen concentrators va in
their flow rates and percentae of oxygen delivered.


Reonndtion No. 5 ­
A legislative proposal should be prepared an subntted by HCFA to reqest
the authority to exten to at-hom oxygen cae a speial paymnt
limitation authority containing speific criteria for establishing these

limitations comparable to those in P.L. 99-509, Section 9333 of the

Omibus Buet Reonciliation Act (OBR).
Conts ­
The provisions of section 9333 of OBR were so cumbersome tht they have

served to limit the Depatmnt's ability to issue speific paymt
limitations for physician services. In fact, section 312 of the

Adinistration's drft Meicae Amendments of 1987 wa proposed to repe

and/or moify som of the OBRA chanes. In this instace, however, there

is no need for a legislative chane. Curent statute would allow inherent

reasonableness rules to be applied by HCFA to oxygen services. HCFA is

effecting implemntation by issuing carrier instrutions (MC 5246.5),

which were referred to in Reoimndtion No. 1.




                                   i6

Reonndtion No. 6 ­
HCFA immediately should conce a series .of demnstration projects, such

as competi ti ve bids and interaency agreemnts with Vetera
Adinistration hospitals. ntese projects should focus on developing

al ternti ve Meicare reimbusement mehanism an innovative method for
ensurin quali ty of patient ca.
Conts ­
HCFA has recently comlete the design phase of a demnstration to test a

competi ti ve bidding approah to reimbusemnt for durable medica
equipnnt. Oxygen is one of the aras which this demonstration will

include. nte Veteras Adinistration's method of selecting a single

lowest-biddng supplier is not sui table for our puses. We must offer a
choice of preferred providers in the Meica progr.




                                  17

APPENDICES





    18

                             APPENDIX A


              MEDICAL NECESSITY CERTIFICATION PROCESS


Based on data obtained during the course of this nationai
 program
inspection, a significant iack of controi exists from the
 point
where the physician's prescription for oxygen becomes the
 actuai
basis for determining the amount to be paid by Medicare.
 For
exampie:
step 1
    The physician writes a prescription to the

           patient for oxygen to be used at home. The

           prescription contains the ii ter fiow rate but
           does not necessariiy stipuiate the length of

           time each day that the patient is to use

           oxygen or the specific equipment to be used.

           The physician then gives the prescription to

           the patient.
step 2
    The patient, with advice or information from a

           physician, hospi tai discharge staff,

           respiratory therapist, a nurse, friends, or

           teiephone book, locates a DME suppiier to fiii

           the prescription.


step 3
    The DME suppiier then transiates the

           prescription to a certification form which

           specifies the actual ìi ter fiow rate and the

           iength of use per day. Aii eiements on the

           certification form are factors in determining

           the amount to be reimbursed by Medicare. .
           Therefore, a DME suppiier couid set the usage

           per day at a rate equi vaient to the maximum

           reimbursement from Medicare (12 to 14 hours

           per day). The DME suppiier deiivers the

           oxygen equipment to the patient whiie the

           certification form is being processed.

step 4
    The DME suppiier sends the compieted

           certification to the physician for his/her

           signature which attests to the vaiidi ty of the

           medicai necessity of the equipment and amounts

           needed. Most physicians sign the certifi­
           cation without cioseiy scrutinizing its

           contents.
step 5
    The DME suppiier then transmits the

           physician's signed certification form to the

           Medicare carrier for processing and payment.




                                 19

                          APPENDIX. B



             PREVAILING CHARGES FOR HcPCS CODE E1396


CARRIER       PREVAILING CHARGE          REASON( S) FOR VARIATION

00520           $300 - $350              Speciai ty code

00528           $265 - $274              Locaii ty, speciai ty code

00542           $310
00550           $265 - $275              Internai modifiers

00630           $301 - $310              Locaii ty

00640           $207 - $360              Locai i ty
00650           $290
00801           $295 - $370              Locaii ty

00803           $364
oi370           $300 - $385              Locaii ty

03070           $268 - $384              Locaii ty

i3iiO           $326
13310           $350 - $375              Speciai ty code

14330           $364
i6360           $225 - $420              Locaii ty

16510           $275 - $336              Locaii ty


THE i986 PREVAILING CHARGES SHOWN ABOVE ARE FROM HCFA' S PART B

MEDICARE ANNUAL DATA SYSTEM (BMAD). HcPCS CODE Ei396 REPRESENTS A

BENEFICIARY'S ESTIMATED CONSUMPTION OF 1952 CUBIC FEET OF OXYGEN

AS PROVIDED BY AN OXYGEN CONCENTRATOR. The 1985 MEDICARE

EXPENDITURES FOR HCPcS CODE E1396 WERE OVER $150 MILLION, WHICH

REPRESENTS MORE THAN 50 PERCENT OF ALL MEDICARE EXPENDITURES FOR

OXYGEN CONCENTRATORS.




                                  20

                            APPENDIX C

       POTENTIAL MEDICARE SAVINGS ON OXYGEN CONCENTRATORS

The 1985 BMAD data (the most recent avaiiabie) estabiished that

the Medicare carriers paid a totai of $300,355,215 in aiiowed

charges for oxygen concentrators. This amount reflects charges

for at ieast 83,432 beneficiaries which is based on an estimated

$300 per month concentrator rentai charge. Using the above data

aiong with other data contained in McM 5246.5, severai potentiai

options for Medicare savings were calcuiated. In each instance

the ai ternative proj ections were subtracted from the amount known

to be currentiy paio by Medicare to DME suppiiers ($300,355,215).


       BASED ON OIG RECOMMENDATIONS -- SHORT TERM SAVINGS

1. Exampie 1a of McM 5246.5 uses an estimate of a'

     suppiier's annuai direct and indirect costs associated

     wi th renting a concentrator. That cost (estimating a 50
     percent mark~p by the suppiier) is an annuai rentai

     aiiowance of $i, 655 or about $138 per month.


     a. 83,432 beneficiaries X $i38 per month X 12 months =

                          $138,163,392
          POTENTIAL SAVINGS = $162,191,000

     b. 100 percent markup or $2,206 annuaiiy or $i84

          monthiy
          83,432 beneficiaries X $184 per month X i2 months =

                               $184,217,856
          POTENTIAL SAVINGS = $116,137,000

2. Exampie 2 of MCM 5246.5 estabiishes a reasonabie monthiy

     charge for purchase by seiecting the median of whoiesaie

    prices for concentrators (i. e., $840) and increasing it

    by a markup of 66-2/3 percent for the suppiier.


    . $840 per month X 167 percent =   $ 1, 403
     $i,403 X 83, 4~2 beneficiaries=              $117,038,410
     Non-routine maintenance*
          12 months X $31 per month
          X 83,432 beneficiaries =                 3i,036,704
     Repairs and overhaui (warranty exciuded) *
          $360 X 3 divided by 5
          X 83,432 beneficiaries =                  i8,021,3i2
                              TOTAL               $166,096,426
     POTENTIAL SAVINGS = $134,258,000 during first year. Greater

     savings accrue in later years, since the purchase price was

     included in year one.


* See Appendix E

                                21
3. Exampie 3 of MCM 5246.5 estabiishes a monthiy rentai

     rate by determining 10 percent of the purchase price of

     a concentrator as being inherentiy reasonabie.

     io percent of $i, 400 = $i40 per month pius maintenance and

          repairs of $600 per year ($50 per month)


     $190 per month X 12 months X 83,432 beneficiaries =

                           $190,224,960

     POTENTIAL SAVINGS =        $110,130,000


       BASED ON OIG RECOMMENDATIONS -- LONG TERM SAVINGS:

1. The average monthiy rentai for concentrators for VA

     hospitais with competitive bid contracts is $82.14.

     Adoption of a simiiar ievei for Medicare wouid resui t in

     annuai costs of approximately:


     $82. i4 per month X i2 months X 83,432 beneficiaries =

                           $82,237,254

     POTENTIAL SAVINGS =        $218,117,000

2. The average monthiy rentai for concentrators for
     VA hospi tais with no competitive bid contract is $168.75.
     Medicare's use of a simiiar ievei wouid resui t in annuai
     costs of approximateiy:

     $i68.75 per month X 12 months X 83,432 beneficiaries =

                           $168,949,800
     POTENTIAL SAVINGS =        $131,405, 000

3. Medicaid state agencies with competitive bid contracts pay an
     average of iess than $150 per month for oxygen concentrators.
     A simiiar ievei for Medicare wouid resui t in annuai costs of
     approximateiy:
     $i50 per month X i2 months X 83,432 beneficiaries =

                           $150,177,600
     POTENTIAL SAVINGS =        $150,177, 000




                                 22

                             APPENDIX D


                  LIST OF PRIOR. STUDIES AND REPORTS



i. "Oxygen Concentrator study" (1-04-9031-10), 9/30/8i,

    HCFA Program Vaiidation Report.

2. Annuai Management Report, ii/13/84, The Equitabie Study

    (Medicare Carrier for Tennessee).

3. "Review of Cost Containment through Expansion of the

    Lowest Charge Levei Limitation", (1-02-005-19) 12/15/81,

    HCFA/BQC.

4. "Evaiuation of the Impact of the Lowest Charge Levei",

    4/6/82, HCFA Bureau of Program poiicy.


5. "Extending the Lowest Charge Levei (LCL) to Addi tionai

    Non-Physician Procedures", (01-320ii), OIG/Audi t.

6. "Priori ty Inspection Report (PIR) on Medicare Payments

     for Oxygen Concentrators", 8 / 18 / 83, OIG/OHFI.
7. "Priori ty Inspection Report--Liquid Oxygen and Portabie

    Pressurized Gas Systems", 5/84, OIG/OHFI, Region II.

8. "Review of Oxygen Concentrators", 11/82, HCFA,

     Region II.
 9. "Durabie Medicai Equipment--Competi tive Bidding

     Demonstration-Market Case Studies", 8/21/86, HCFA

     Contract to Abt Associates.

io. GAO studies numbered HRD 82-61 (7/23/82), HRD 83-73

     (7/8/83), and HRD 84-40 (2/13/84).

11. "Home Oxygen Expenditures", (2R7-A02-111), 8/13/82,

    Veterans Administration/Audit.
                                                               ,.
12. Management Impiication Reports (MIR) prepared by OIG/OI which

     address a fuii range of probiems and/or improprieties with

     at-home oxygen care. The dates of these MIRs are from March

     1984 thru Juiy 1986. Specific MIRs are: MIR 84-48, MIR 84­
     97, MIR 84-114, MIR 85-75, MIR 85-132, MIR 85-171, MIR 86-02,

     and MIR 86-iO, OIG/OI.





                                  23

i3. "Determinants of Current and Future Expenditures on Durabie

     Medicai Equipment by Medicare and Its Program Beneficiaries,"

     4/83, Wiiiiams Coiiege, Wiiiiamstown, Massachusetts.

14. Uni ted states Congress, Deficit Reduction Act of 1984

     (DEFRA), Section 1889. Consoiidated Budget Reconciiiation

     Act of 1986 (COBRA), Section 9304. Omnibus Budget

     Reconciiiation Act of 1986 (OBRA), Section 4530.

15. "Medicare Cataract Impiant Surgery" (OAI-09-85-09-046),

     "Medicare Part B Ambuiance Services" (OAI-03-86-00012),

     "Coronary Artery Bypass Graft (CABG)--Assuring Quaiity Whiie

     Controiiing Medicare Costs" (OAI-09-86-00076), OIG/OAI.





                               24

                             APPENDIX E


      MEDICARE CARRIERS MAAL 5246.5 COMPUTATION EXAPLES


The exampies set forth beiow were provided to the carriers by HCFA

as iiiustrations on how inherent reasonableness might be appiied.

The carriers were advised to determine independentiy the method to

be used for deciding how inherent reasonabieness wiii be appiied

in their respective areas and to soiicit comments from appropriate

groups. The carriers were cautioned against mereiy issuing the

exampies as poiicy.



EXAMPLE 1

Prevaiiing charge for rentai               $300 per month
Prevaiiing charge for purchase             $3,000
Acquisi tion costs                         $1,000
Estimated usefui iife                      5 years
Technicai maintenance                      $3i per month
Average annuai repairs and                 $360
 overhaui beyond warranty period


                     RENTAL ESTIMATE

     Annual Depreciation                          $200

     ($1, 000 divided by 5 years)

     Non-routine téchnicai maintenance            $372

     ($31.00 x 12 months)

     Averageannuai repairs and overhaui           $216

     for 5-year period - 2 years under

     warranty
     ($360 x 3 divided by 5)

                     TOTAL DIRECT COSTS       , $788

     Indirect Costs - space, taxes,

     insurance, inventory,
     financlng, etc. (40 percent)                 $315

                     TOTAL ANAL COST              $1103

                     TOTAL MONTHLY COST           $91.92

AT A MARK-UP OF 50 PERCENT AND 100 PERCENT THE ANAL. RENTAL

ALLOWANCES WOULD AMOUNT TO $1,655 ($138.00 MONTHLY) AND $2,206

($184.00) RESPECTIVELY

                                 25
EXAMPLE 2

REASONABLE CHARGE FOR PURCHASE

Reasonabie charge for purchase is estabiished by seiecting the

median of whoiesaie prices (i. e., $840) and ~ncreasing the

seiected price by the industry standard DME markup of 66-2/3

percent, and establishing that price as the reimbursement for a

purchased concentrator with non-routine maintenance and repair

charges addi tionai .
     $840 X 167 PERCENT. = $1,400





EXAPLE 3
INHERENTLY REASONABLE MONTHLY RENTAL

Estabiish io percent of the purchase price as the inherentiy

reasonabie monthiy rentai aiiowance for DME. Add a factor to

cover maintenance and repair. Use $i, 400 as purchase price and

$600 for annuai maintenance and repairs. The reasonabierentai

aiiowance would be $190 per month.

   10 PERCENT OF $1,400 = $140 + $600 DIVIDED BY 12 = $50.00

          $140 + $50 = $190





                                  26

